January 29, 2021
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

Case No. 19-255
Thomas More Law Center v. Becerra

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.3(a), Petitioner Thomas More Law Center
hereby gives blanket consent to the filing of amicus curiae briefs in support of either
or of neither party in the above-referenced case, with respect to the Petition for a Writ
of Certiorari filed on August 26, 2019, which the Court granted on January 8, 2021.
Sincerely,

John J. Bursch
Counsel for Petitioners
cc:

Aimee A. Feinberg, California Department of Justice
Counsel for Respondent
Derek L. Shaffer, Quinn Emanuel Urquhart & Sullivan, LLP
Counsel for Americans for Prosperity Foundation (in consolidated case)

